APPENDIX:
A: Decision, Maine Supreme Court

I

B: Decision, Pretrial Motion

III

C: Pretrial Motion

IV

D: Motion in Limine

VI

E: Motion for Arrest of Judgment

VII

F: Motion for New Trial

XII

G: Constitutional Provisions

XVI

H: Maine Statutes Involved

XVIII

I: Brunswick Police Report

XXV

J: Notice to Town of Brunswick

XXVII

K: Phone Message from Brunswick
Police Commander

XXIX

L: Second Notice to Brunswick Police

XXX

A: MAINE SUPREME COURT DECISION
Reporter of Decisions
' Decision No. Mem 20-25
Docket No. Cum-19-275

MAINE SUPREME
JUDICIAL COURT

STATE OF MAINE
V
PRESCOTT MCCURDY
Submitted on briefs February 26, 2020
Decided March 5, 2020
Panel: MEAD, GORMAN, JABAR, and COONERS,
JJ.
MEMORANDUM OF DECISION
Prescott McCurdy appeals from a judgment of
conviction of obscuring a license plate (Class E), 29-A
M.R.S. §2104(2) (2018), and operating an unregistered
vehicle (Class E), 29-A M.R.S. §351(1)(B) (2018),
entered in the trial court (Cumberland County,
Warren, J), following a jury trial. McCurdy raises a
number of arguments on appeal that are
underdeveloped and unsupported by legal authority.
We decline to address these arguments. See State v.
Salisbury, 2017 ME 215,12, 173 A.3d 146.
As for McCurdy's principal arguments, we reject
each in turn and affirm the trial court's judgment.

I

First, contrary to McCurdy's contention, the
Maine courts have jurisdiction over him. See State v.
Pelletier, 2015, ME 129, Tf3, 125 A.3d 354.
Second, 29-AM.R.S. §351(1)(B) requiring
vehicle registration, is a constitutional exercise of
Maine's police-power authority. See State v. Cason
2012 ME 91, 13, 46 A.3d 1141.
Third, 29-A M.R.S. §2104(2) is not
unconstitutionally vague, does not violate principles of
equal protection as applied to McCurdy, and the sub­
section's title does not prejudice him. See State v.
Police Aboda, 2010 ME 125, 114, 8 A.3d 719; Bran v.
State, 424 A.2d 699, 703 (Me. 1981); 1 M.R.S. § 71(10)
(2018).
,
Finally, the court s instructions to the jury were
not in error. See State v. Soloman, 2015 ME 96 If 12
120 A.3d 661.
"
.
The entry is:
Judgment Affirmed.

Prescott McCurdy, appellant pro se
Jonathan Sahrbeck, District Attorney, Amanda
Doherty, Asst. Dist. Atty., and Rosemarie Guimaraes,
Stud. Atty., Cumberland County District Attorney's
Office, Portland, for appellee State of Maine

II

B: DECISION, PRETRIAL MOTION
MOTION HEARING
Judge:

Date: 4-9-19
Frizsche
Docket N. 18-20749
Defendant: P McCurdy
Danielle

FTR#:
Clerk:

1

DA/ADA:

O'Brien
Today's Event: Motion Hearing: Pre-Trial Motion
Granted in Part
Notes: separate trial request granted; all other
requests denied

FUTURE DATES:
Trial exposure period starts

III

4-22-19

C: PRETRIAL MOTION
STATE OF MAINE
CUMBERLAND, SS

SUPERIOR COURT
PORTLAND
CR- 18-20749
CR 18-20748

STATE OF MAINE
v

PRETRIAL MOTION

PRESCOTT MCCURDY
NOW COMES PRESCOTT McCURDY, and
moves as follows:
1. In respect to failure to display plates charge,
the charge is unconstitutionally vague as is the
statute, to wit 29-A MRSA §452, 4, and denies
rights reserved to him under the 9th, 10th, and
violates 14th Amendment Due Process of law
and abridges his rights and privileges as a
Citizen of the United States under the 14th
Amendment, this being the case, the Accused
also challenges the probable cause and legality
of the arrest and seizure and impoundment of
his vehicle under the 4th and 14th Amendments
US. Const'n.
2. In respect to failure to register charge, 29-A
MRSA §351, the charge and the statue, to wit
29-A MRSA §351, violates the rights reserved to
him under the 9th, 10th Amendments, and Due
Process of law under the 14th Amendment and
abridges his rights as a citizen of the U>S.
IV

under the 14th Amendment. This being the case, the
Accused also challenges the legality of the probable
cause to arrest, seizure and impoundment of his
vehicle under the 4th and 14th Amendments US.
Const'n.
3. As to the VCR charge, this hinges on finding
the other two charges are crimes and conviction
of them. The Accused asks for a bifurcated trial
and accepts that upon final conviction, if any, of
the the other charges he will be in violation of
condition of release.
4. Motion to join charges in Violations Bureau,
Citation 3061412 violation of 29-A 1768-7 and
29-A MRSA-452, in respect to 29-A Section 452,
it appears the charges are divided into civil and
criminal offense which is so uncertain as to be
unconstitutionally vague and violate double
jeopardy provisions of the Double Jeopardy
Clause, U.S. Const'n 5th and 14th Amendments.
5. Motion to return his property, namely motor
vehicle that was seized, under M.R.Crim. P. 41,
4th and 14th Amendments for reason of unlawful
seizure.
Given the above stated claims; the court lacks
subject matter jurisdiction.
^
1

3/21/19

5
Prescott McCurdy

V

D: MOTION IN LIMINE
STATE OF MAINE
CUMBERLAND ss

SUPERIOR COURT
PORTLAND
CUM CD CR 2018-20749

STATE OF MAINE

MOTION IN LIMINE RE
FALSE IDENTIFICATION
CHARGE

v
PRESCOTT MCCURDY

The title of the statutory charge tells the jury
the Defendant has done something”'False”. But the
charge is a strict liability charge. “False” implies a
state of mind. The charge of violation of 29-A M.R.S.A.
§ 2404, 2, therefore must require intent.
The act is also over-broad on it's face. It does
not require “operation”. For all the statute cares, the
vehicle could be in the barn. The charge applies
whether a vehicle is operated or remains on a public
way or not. Also the charge is not limited to the driver.
The charge and statute are painfully vague. It should
therefore be dismissed.
Alternatively, if the statute can be saved, the
actus reus must be in context of intent. Cf 17-A
M.R.S.A. § 354, 4-A. See Elonis v United States, 135
U.S. 2001 (2015); Morisette v United States 342 US.
346 (1952). Should the charge not be dismissed , an
instruction on intent and consistent references during
trial should be required at the least.
date: June 10, 2019

Respectfully submitted

VI

E: MOTION FOR ARREST OF JUDGMENT
Superior Court
Cumberland County

Docket # CR 18-20749

STATE
v.

MOTION FOR ARREST OF
JUDGMENT
(M.R.C.P. Rule 34)

PRESCOTT MCCURDY

i; Prescott McCurdy; defendant; request an
Arrest of Judgment for the reason that the court
lacked jurisdiction.
{“It is elementary that the jurisdiction of
the court over subject matter of the action is
the most critical aspect of the court's
authority to act. Without it the court lacks
any power to proceed; therefore a defense
based upon this lack cannot be waived and
may be asserted at any time.” [cf. Matter of
Green, 313 S.E. 2nd 193 (N.C. App. 1984)];
“Subject matter jurisdiction is a power that
exists by operation of law only and cannot be
conferred upon any court by consent or
waiver.” [cf. Am.jur. 2 Ed., Judgments §22];
“In order for a judgment to be valid and
enforceable, the court which renders it must
have jurisdiction of the parties as well as
jurisdiction of subject matter. It is essential
VII

/

to the validity of a judgment that the court
have both subject matter and personal
jurisdiction.” [cf. Am. Jur. 2Ed., Judgments
§12]}
Reasons for 'lack of jurisdiction':
1) There was no 'Injury in Fact'.
Questions to the witness proved that no person was
injured, and no person was in danger of being injured.
With no Injury in Fact, the State had no Standing and
the court lacked jurisdiction to try the case.
{“As we have explained in our prior
opinions, the injury-in-fact requirement
requires a plaintiff to allege an injury that is
both "concrete and particularized.” [cf.
Friends of the Earth, Inc. v. Laidlaw
Environmental Services (TOC), Inc., 528 U.S.
167, 180-181 (2000)]; “One of the essential
elements of a good cause of action whether
based on an alleged breach of contract or on a
tortious act, is a consequential injury or
damage ... in the absence of injury or
damage, he or she has no cause of action and
no right of action.” [cf. Am. Jur. 2d, Cause of
Action § 48]; 'An action is not given to one
who is not injured.' (Maxim of Law)}
2) The statute on registration; M.R.S title
29-A, purports to be a 'crime'. Converting a
right/liberty into a crime; and demanding money in
order to exercise that right/liberty; is a crime in itself.
VIII

{crime: offenses against the laws made to
preserve the publics rights; such as murder,
robbery, theft, arson, moral wrong.
(Webster's 1828); The claim and exercise of a
Constitution right cannot be converted into a
crime"... "a denial of them would be a denial
of due process of law", [cf. Warnock v. Pecos
County, Texas., 88 F3d 341 (5th Cir. 1996)]}
3) This statute on registration, M.R.S.
Title 29-A, abridges the peoples right to personal
liberty.
{Personal liberty largely
consists of the right of locomotion, to go
where and when one pleases, only so far
restrained as the rights of others may make
it necessary for the welfare of all other
citizens. The right of a citizen to travel upon
the public highways and to transport his
property thereon, by horse-drawn carriage,
wagon, or automobile, is not a mere privilege
which may be permitted or prohibited at will,
but a common right which he has under his
right to life, liberty, and the pursuit of
happiness. Under this constitutional
guaranty one may, therefore, under normal
conditions, travel at his inclination along the
public highways or in public places, and
while conducting himself in an orderly and
decent manner, neither interfering with nor
disturbing another's rights, he will be
protected, not only in his person, but in his
safe conduct." [cf. II Am. Jur. (1st)
Constitutional Law, §329, p.1135]}
IX

4) The stated statute constitutes a
restriction, has no relation to the safety of the public,
and is an arbitrary extension of the police power of the
State. Thus the said statute is unconstitutional.
{“The state's police power does not justify
an interference with constitutional rights
that is entirely out of proportion to any
public benefit.” [cf. Am. Jur. 2d 16A, p.284];
“State Police Power extends only to
immediate threats to public safety, health,
welfare, etc.,” [cf. Michigan v. Duke 266 US,
476 Led. At 449]}. {If a criminal statute is
unconstitutional, the court lacks subjectmatter jurisdiction and can not proceed to try
the case.” 22 C.J.S. “Criminal Law”, §157, p.
' 189; [cf. People v. Katrinak, 185 Cal. Rptr.
869, 136 Cal.App.3d 145 (1983)]}
5) The enforcement of said statute is an
arbitrary and capricious act. A direct violation of Due
Process of Law.
{“The requirements of reasonableness arise
from due process, and an unreasonable
exercise of the police power results in a
deprivation without due process.” (emphasis
added) {cf. [Am. Jur. 2d 16A, p.271]; Personal
liberty consists of the power of locomotion, of
changing situations, of removing one's person
to whatever place one's inclination may
direct, without imprisonment or restraint
unless by due process of law." [cf. Bovier's
Law Dictionary, 1914 ed.; Black's Law Diet.
X

5th ed.; Blackstone's Commentary 134; Hare
Constitution, Pg. 777]}
THEREFORE, the judgment in this case is to be
arrested. FURTHERMORE, whereas the court lacked
jurisdiction to try the case, there must be an acquittal.
i say here and will verify in open court; that all
herein be true; to the best of my knowledge.
DATE: 06/20/19
\

/

Prescott McCurdy

XI

F: MOTION FOR NEW TRIAL
Superior Court
Cumberland County
Docket # CR 18-20749
STATE
v.

MOTION FOR NEW TRIAL
(M.R.C.P. Rule 33)

PRESCOTT MCCURDY

i, Prescott McCurdy; defendant, kindly request i
New Trial, under the claim that i did not receive a
'fair trial'.
i base this claim on the following facts:
1) my rights to Due Process of Law under the 5th
and 14th Amendments to the U.S. Constitution, were
violated.
{“Our Supreme Court has also held the
denial of due process is a denial of
fundamental fairness, shocking to a
universal sense of justice. Oshrin v. Coulter,
142 Ariz. 109, 688, P2.d 1001 (1984). See
Kinsella v. U.S. ex rel. Singleton, 361 U.S.
234,80 S. Ct. 297, 4 L. Ed.2d 268 (I960).” [cf.
State ex rel Romley v. Superior Court, 172
Ariz. 232]}
XII

a) evidence, in the form of 'documentary
evidence', that i attempted to show, through having
the witness read the document, was suppressed.
b) the questions i posed to the witness,
questions related to testimony of 'understanding of the
law', were suppressed. .
c) only part of the jury instruction on 'the
law' that i requested was given. The jury instruction
that was given was most favorable to the State.
"The Court has held that practically all the
criminal procedural guarantees of the Bill of
Rights—the Fourth, Fifth, Sixth, and Eighth
Amendments—are fundamental to state
criminal justice systems and that the absence
of one or the other particular guarantees
denies a suspect or a defendant due process
of law under the Fourteenth Amendment."
[cf. See analysis under the Bill of Rights,
“Fourteenth Amendment,” supra]] 'An act of
the court shall oppress no one.' (Maxim of
Law)
2) when a judge makes a statement such as;
“viewed in the light most favorable to the State”;
fairness is no longer at play, and the Integrity and
Impartiality of the judiciary is lost.
The preamble to the Maine Code of Judicial
Conduct reads; 'An independent, fair,
competent, and impartial judiciary is
indispensable to our system of justice. The
United States legal system is based upon the
principle that an independent, fair,
XIII

competent, and impartial judiciary, composed
of men and women of integrity, will interpret
and apply the law that governs our society,
and They should aspire at all times to
conduct that ensures the greatest possible
public confidence in their independence,
integrity, fairness, and competence.
Whereas Integrity is defined as: probity,
fairness, honesty, uprightness, and soundness of
character, and Law is defined as: encompasses court
rules, statutes, administrative rules and regulations,
constitutional provisions, and decisional law.
AND, the Judicial Branch Mission is: To
administer justice by providing a safe, accessible,
efficient and impartial system of dispute resolution
that serves the public interest, protects individual
rights and instills respect for the law.
“Under our federal system, the federal and
state courts [are] equally bound to guard and
protect rights secured by the Constitution,”
Ex parte Royall, 117 U.S. 241, 251 (1886)
“In the United States, Federal
Constitutional issues can be litigated not
only in the federal courts but also in the state
courts.” [cf. Doremus v. Board ofEducation
ofBorough ofHawthorne, 342 U.S. 429, 72 S.
Ct. 394, 96 L. Ed. 475 (1952)]
“The Judicial machinery is designed to
serve those who feel sufficiently aggrieved to
bring forward their claims.” [cf. Bates v.
State Bar ofArizona 433 U.S. 350]
XIV

“If courts are to regard the Constitution,
and the Constitution is superior to any
ordinary act of the legislature, the
Constitution, and not such ordinary act,
must govern the case to which they both
apply.” [cf. Marbury v. Madison 5 U.S. 137
(1803)]
“State courts equally and concurrently with
the federal courts, bear the duty and
obligation to enforce and protect every right
granted and secured by the constitution of
the United States.” [cf. Am. Jur. 2d 16A
p.482]
THEREFORE, given the above stated facts, i
request a New Trial.

i say here and will verify in open court; that all
herein be true; to the best of my knowledge.
Date: 06/20/19

V__y

y

Prescott McCurdy

XV

G: CONSTITUTIONAL PROVISIONS
INVOLVED
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and
all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the contrary notwithstanding.
(Article VI, Clause II, U.S. Constitution)
The Senators and Representatives before
mentioned, and the Members of the several State
Legislatures, and all executive and judicial Officers,
both of the United States and of the several States,
shall be bound by Oath or Affirmation, to support this
Constitution; (Article VI, Clause 3, U. S. Constitution)
Unreasonable Search and Seizure. The right of
the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by
Oath or affirmation, and particularly describing the
place to be searched, and the persons or things to be
seized. (4th Amendment, U.S. Constitution)
nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.
(5thAmendment, U.S. Constitution)
Impartial Jury. In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district
XVI

wherein the crime shall have been committed, which
district shall have been previously ascertained by law,
and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of
Counsel for his defence. (6th Amendment, U.S.
Constitution)
Enumerated Rights. The enumeration in the
Constitution, of certain rights, shall not be construed
to deny or disparage others retained by the people. (9th
Amendment, U.S. Constitution)
Slavery. Neither slavery nor involuntary
servitude, except as a punishment for crime whereof
the party shall have been duly convicted, shall exist
within the United States, or any place subject to their
jurisdiction. (13th Amendment, U.S. Constitution)
Right of Due Process of Law. nor shall any state
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. (14th
Amendment; U.S. Constitution)
No State shall. . . pass any bill of Attainder, ex
post facto Law or Law impairing the obligation of
contracts (Article I, section 10, Clause 1, U.S.
Constitution)

XVII

1

H: MAINE STATUTES INVOLVED
Title 29-A: MOTOR VEHICLES AND TRAFFIC
Chapter 5: VEHICLE REGISTRATION
Subchapter 1: REGISTRATION
Article 1: GENERAL REGISTRATION
REQUIREMENTS
§351. Registration required
The owner of a vehicle that is operated or remains on
a public way is responsible for registering the vehicle.
1. Failure to register. A person who operates a vehicle
that is not registered in accordance with this Title,
fails to register a vehicle or permits a vehicle that is
not registered to remain on a public way commits:
A. A traffic infraction for which a fine of not
more than $50 may be adjudged if the vehicle was
registered and the registration has been expired
for more than 30 days but less than 150 day s; or
B. A Class E crime if the vehicle was not
registered or the registration has been expired for 150
days or more.
1-A. Residents required to register. An owner of a
vehicle who becomes a resident of this State shall
register that vehicle in this State within 30 days of
establishing residency. A person who operates or
allows a vehicle that is not registered in accordance
with this subsection to remain on a public way
commits:
A. A traffic infraction for which a fine of not
more than $50 may be adjudged if more than 30
days but less than 150 days has elapsed since
establishing residency; or
XVIII

B. A Class E crime if more than 150 days have
elapsed since establishing residency.
2. Operating a vehicle with an expired registration.
The owner or operator of a vehicle stopped by a law
enforcement officer and having a registration that has
expired within the last 30 days must be issued a
warning, rather than a summons, in a form
designated by the Chief of the State Police. This
warning must state that:
A. Within 2 business days, the owner or
operator must register the vehicle;
B. The renewed registration expires on the
same month as the previous registration; and
C. The registration fee is the same as for a full
year's registration.
3. Temporary permit to tow unregistered vehicle. A
law enforcement officer, an employee of a municipal
police department designated by the chief, an
employee of the sheriffs department designated by the
sheriff, an employee of the State Police designated by
the Chief of the State Police or an employee of the
bureau designated by the Secretary of State may issue
a permit in writing to allow:
A. An unregistered motor vehicle to be towed
either by a regular service wrecker or by the use of a
towbar or tow dolly; or
C. An unregistered trailer or semitrailer with a
gross weight of 3,000 pounds or less to be
towed, for
one trip only, between the points of origin and
destination.
A permit issued under this subsection is valid for no
more than 3 days, including the date of issuance.
XIX

3-A. Permit to operate unregistered vehicle. Up on
stopping a vehicle with a registration that has been
expired for more than 30 days, a law enforcement
officer may issue a permit to the owner or operator of
the vehicle to operate the vehicle to the owner's
residence or to an office of the bureau for the sole
purpose of renewal of the registration by the owner.
§105. Enforcement
1. Authority to stop motor vehicle. If a law
enforcement officer has reasonable and articulable
suspicion to believe that a violation of law has taken
or is taking place, that officer, if the officer is in
uniform may stop a motor vehicle for the purpose of:
A. Arresting the operator for a criminal
violation;
B. Issuing the appropriate written process for a
criminal or civil violation or a traffic infraction;
or;
C- Questioning the operator or occupants.
2. Scope of inspection. A law enforcement officer who
has stopped a motor vehicle pursuant to subsection 1
may demand and inspect the driver's license,
certificate of registration, permits and the
identification numbers of the motor vehicle. A state
police officer who is trained pursuant to the motor
carrier safety rules of the motor carrier safety
regulations of the United States Department of
Transportation may demand and inspect the driver's
record of duty status and medical examiner's
certificate, if applicable.

XX

3. Impoundment. When a motor vehicle is operated by
a person not able to produce a certificate of
registration, or by a person other than the person in
whose name the vehicle is registered and the operator
is unable to present reasonable evidence of authority
to operate that vehicle, an officer may impound and
hold that vehicle until that vehicle is claimed by the
registered owner or until the registered owner verifies
the authority of the operator. The registered owner
must be notified immediately of the impoundment.
Violation. A person is guilty of a Class E crime if a
law enforcement officer has probable cause to believe
the person violated or is violating this Title and the
person intentionally fails or refuses upon request to
give the person's correct name, address or date of
birth to a law enforcement officer.
§409(5) Collection of Taxes
5. Other taxes. A motor vehicle, mobile home or camp
trailer may not be registered until the excise tax or
personal property tax or real estate tax has been paid
in accordance with Title 36, sections 551, 602, 1482
and 1484. The Secretary of State may provide
municipal excise tax collectors with a standard vehicle
registration form for the collection of excise tax.
§2104. Improper plates
1. Attaching false plates. A person commits a Class E
crime if that person attaches to a vehicle a
registration plate assigned to another vehicle or not
currently assigned to that vehicle.
XXI

2. False identification. A person commits a Class E
crime if that person obscures identification numbers,
identification letters, the state name, validation
sticker or mark distinguishing the type of plate
attached to a vehicle.
5. Strict liability. Violation of subsection 1, 2 or 3 is a
strict liability crime as defined in Title 17-A, section
34, subsection 4-A.
Title 17-A Maine Criminal Code:
§352. Definitions:
1 • Property” means anything of value, including but
not limited to:
A. Real estate and things growing thereon,
affixed to or found thereon;
B.Tangible and intangible personal property
3. Intent to deprive” means to have the conscious
object:

,

A. To withhold property permanently or for so
extended a period or to use under such circumstances
that a substantial portion of its economic value, or the
use and benefit of the property, would be lost; or
B.To restore the property only upon payment of
a reward or other compensation;
§355. Theft by extortion:
1. A person is guilty of theft if the person
obtains or exercises control over the property of
another as a result of extortion and with intent to
deprive the other person of the property.
XXII

§60. Criminal liability of an organization:
1. An organization is guilty of a crime when:
A. It omits to discharge a specific duty of
affirmative performance imposed on it by law, and the
omission is prohibited by this code or by a statute
defining a criminal offense outside of this code; or
B. The conduct or result specified in the
definition of the crime is engaged in or caused by an
agent of the organization while acting within the
scope of the agent's office or employment.
2. It is no defense to the criminal liability of an
organization that the individual upon whose conduct
the liability of the organization is based has not been
prosecuted or convicted, has been convicted of a
different offense, or is immune from prosecution.
Title 36: TAXATION
Part 2: PROPERTY TAXES
Chapter 111: AIRCRAFT, HOUSE TRAILERS AND
MOTOR VEHICLES
§1482. Excise tax
1. Annual excise tax. An annual excise tax is imposed
with respect to each registration year in the following
cases.
C. For the privilege of operating a motor vehicle
or camper trailer on the public ways, each motor
vehicle, other than a stock race car, or each camper
trailer to be so operated is subject to excise tax as
XXIII

follows, except as specified in subparagraph (3), (4) or
(5): a sum equal to 24 mills on each dollar of the
maker s list price for the first or current year of model,
17 1/2 mills for the 2nd year, 13 1/2 mills for the 3rd
year, 10 mills for the 4th year, 6 1/2 mills for the 5th
year and 4 mills for the 6th and succeeding years. The
minimum tax is $5 for a motor vehicle other than a
bicycle with motor attached, $2.50 for a bicycle with
motor attached, $15 for a camper trailer other than a
tent trailer and $5 for a tent trailer. The excise tax on
a stock race car is $5.
!

On new registrations of automobiles,
trucks and truck tractors, the excise tax
payment must be made prior to registration
and is for a one-year period from the date of
registration.

For motor vehicles being registered pursuant to Title
29-A, section 405, subsection 1, paragraph C, the
excise tax must be prorated for the number of months
in the registration.

XXIV

I: BRUNSWICK POLICE REPORT
Brunswick Police Department
Page 2
Summons Report
10/05/2018
Summons #: 18155-969-AR
Call#: 18-34210
Offense (s)
Class
1 Obscuring Motor Vehicle Plate
E
29-A 2104.2
1167

Type
Misdemeanor

Occurred: 09/30/2018
1719
Refer to Citation#: 3092884
Suspected of Using: Not Applicable
Bias Against: No Bias
2 Failure to Register Vehicle
E
9142
29-A 351.l.B

Misdemeanor

Occurred: 09/30/2018
1719
Refer to Citation#: 3092883
Suspected of Using: Not Applicable
Bias Against: No Bias
3 Violation Conditions of Release
E
9632
15 1092.1.A
Occurred: 09/30/2018
1719
Refer to Citation#: 3092882
XXV

Misdemeanor

Suspected of Using: Not Applicable
Bias Against: No Bias
Vehicle
Value
LANDCR
hhopwr 4K

Year Make

Style Color Reg

1985 Toyt

UT

Status: Held for Safe Keeping
10/05/18
Owner: McCurdy, Prescott
VIN: JT3FJ60G2F1130702
Towed to: Atlantic Coast Towing
Pleasant St
Brunswick, ME 04011
Towed By: Atlantic Coast towing
Additional Assisting Officers
Patrol Officer Janies Fisher
Attachments for 18155-969-AR
Bail conditions
File 2/27/28
Crim Hist

XXVI

BRO
Date:

J: NOTICE TO TOWN OF BRUNSWICK
Prescott McCurdy
34 Allen Point Rd.
Harp swell, Me 04079
John Eldridge, Town Manager
85 Union St.
Brunswick, ME 04011
October 25, 2018
Notice: Claim
Willful and Malicious Injury
(this claim is federal in nature)
Dear John Eldridge,
i am writing to inform you of injuries that i
have sustained do to the Willful and Malicious acts
of The Town of Brunswick. In particular; Officers
Curtis, Bernier, and Sgt. Yetuk. This claim is made
against these men in their individual and official
capacity.
On September 30, 2018 around 5:30 pm [my]
property (1985 Toyota LandCruiser, FJ60 wagon) was
taken; by said officers; without just compensation.
Under the Constitution of Maine and the
United States Constitution; property can not be taken
without compensation (Due Process of Law). This act
constitutes a conversion; and if prosecuted; theft by
extortion.
XXVII

The actions of these men also constitutes a
Deprivation of Civil Rights (42 USC 1983, 1985); [my]
right to privacy; [my] right to be 'let alone'.
i require the return of [my] property; as well as
compensation for injuries. Please return [my] property
to 34 Allen Point Rd., Harp swell, ME 04079. i will also
be seeking a summary proceeding as well as injunctive
relief.
Please respond within 7 days of this notice.
Thank you for your attention to this matter. This
notice is sent in good faith; with no intent of
harassment.
i say here and will verify in open court; that all
herein be true; to the best of my knowledge.
Sincerely,
A

J7

/

Prescott McCurdy
cc: Police Chief Richard Rizzo
Attorney General, Janet Mills

XXVIII

K: PHONE MESSAGE FROM BRUNSICK
POLICE COMMANDER
12077214300@vm.vonage.com
To:prescott_mccurdy@yahoo.com
Mon, Oct 29, 2018 at 2:12 PM
Date : Oct 29 2018 02:11:22 PM
From

: Town of Brunswick
(12077214300)

T°

: Prescott McCurdy
(12074491446)

"Hi Mr. McCurdy this is Cmdr. Mark Walter
Brunswick Police Department 721-4314 is my number
account manager shared some paper work for you
accused us of taking your vehicle. Just wanna make
sure you understood that the reason why your vehicle
was towed is because it wasn't registered. You are free
to get that back at any time in fact the sooner you get
it back the better because you're in coring or to
charges everyday. See you just wanna go Atlantic
Coast towing pay the tow charges and you either(?)
have to have the car registered to drive it off or you
could pay to have them tow it some place or someone
else pulled out of the yard. So the two things that have
to happen this is basically pay the tow charges the
storage charges and then either pay to have it hauled
off or paid to register it and put plates on it. Any
questions again it's Cmdr. Mark Walt 721-4314 thank
you. Bye."
— Brought to you by Vonage —
XXIX

L: SECOND NOTICE TO BRUNSWICK
Prescott McCurdy
34 Allen Point Rd.
Harpswell, ME
04079
Mark Waltz, Commander
Brunswick Police Dept.
85 Pleasant St.
Brunswick, ME 04011
November 9, 2018
Notice: Claim
Dear Commander Waltz,
thank you for responding to my notice of claim, i
respectfully restate my claims:
3 men (Officer Curtis, Officer Bernier, and Sgt.
Yutek) under your command; acting for The Town of
Brunswick and the State of Maine; did unlawfully
seize [my] property; a 1985 Toyota LandCruiser FJ60
wagon; without Due Process of Law. A taking. A
violation of Due Process of Law under the United
States Constitution and the Maine Constitution.
[i] also claim these men unreasonably and
unlawfully searched [my] property.
During [my] encounter with your men, a threat
of irreparable harm was communicated by one.

XXX

An intentional infliction of emotional distress
(duress).
i claim the right of redress in a 'court of law1.
i wish no one harm; only the return of [my]
property and compensation for injuries.
Injuries are; Deprivation of rights and duress.
[i] again ask that [my] property be returned to
[my] place of domicile; 34 Allen Point Rd., Harpswell
Maine.
Thank you for your attention to this matter.
i say here and will verify in open court; that all
herein be true; to the best of my knowledge.

Prescott McCurdy

cc: John Eldridge , Town manager, Brunswick, ME

XXXI

